<html>
<title> - FARMERS AND FRESH WATER: VOLUNTARY CONSERVATION TO PROTECT OUR LAND AND WATERS</title>
<body><pre>[Senate Hearing 113-639]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 113-639

                        FARMERS AND FRESH WATER:
                       VOLUNTARY CONSERVATION TO
                      PROTECT OUR LAND AND WATERS

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON AGRICULTURE,
                         NUTRITION AND FORESTRY

                          UNITED STATES SENATE


                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION


                               __________

                            DECEMBER 3, 2014

                               __________

                       Printed for the use of the
            Committee on Agriculture, Nutrition and Forestry


        Available via the World Wide Web: http://www.fdsys.gov/


                                    ______
 
                       U.S. GOVERNMENT PUBLISHING OFFICE 

94-365 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001


            COMMITTEE ON AGRICULTURE, NUTRITION AND FORESTRY



                 DEBBIE STABENOW, Michigan, Chairwoman

PATRICK J. LEAHY, Vermont            THAD COCHRAN, Mississippi
TOM HARKIN, Iowa                     MITCH McCONNELL, Kentucky
SHERROD BROWN, OHIO                  PAT ROBERTS, Kansas
AMY KLOBUCHAR, MINNESOTA             SAXBY CHAMBLISS, Georgia
MICHAEL BENNET, COLORADO             JOHN BOOZMAN, Arkansas
KIRSTEN GILLIBRAND, NEW YORK         JOHN HOEVEN, North Dakota
JOE DONNELLY, INDIANA                MIKE JOHANNS, Nebraska
HEIDI HEITKAMP, NORTH DAKOTA         CHARLES E. GRASSLEY, Iowa
ROBERT P. CASEY, Jr., PENNSYLVANIA   JOHN THUNE, South Dakota
JOHN WALSH, MONTANA

             Christopher J. Adamo, Majority Staff Director

              Jonathan J. Cordone, Majority Chief Counsel

                    Jessica L. Williams, Chief Clerk

              Thomas Allen Hawks, Minority Staff Director

       Anne C. Hazlett, Minority Chief Counsel and Senior Advisor

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing(s):

Farmers and Fresh Water: Voluntary Conservation to Protect Our 
  Land and Waters................................................     1

                              ----------                              

                      Wednesday, December 3, 2014
                    STATEMENTS PRESENTED BY SENATORS

Stabenow, Hon. Debbie, U.S. Senator from the State of Michigan, 
  Chairwoman, Committee on Agriculture, Nutrition and Forestry...     1
Boozman, Hon. John, U.S. Senator from the State of Arkansas......     3

                               Witnesses

Collins, Hon. D. Michael, Mayor, Toledo, Ohio....................     6
Weeks Duncanson, Kristin, Owner/Partner, Duncanson Growers, 
  Mapleton, Minnesota............................................     8
Matlock, Marty D., Ph.D., Executive Director, Office For 
  Sustainability, University of Arkansas, Fayetteville, Arkansas.     9
Fisher, Trudy D., Former Executive Director, Mississippi 
  Department of Environmental Quality, Ridgeland, Mississippi....    11
McMahon, Sean, Executive Director, Iowa Agriculture Water 
  Alliance, Ankeny, Iowa.........................................    12
Weller, Jason, Chief, Natural Resources Conservation Service, 
  U.S. Department of Agriculture, Washington, DC.................    20
                              ----------                              

                                APPENDIX

Prepared Statements:
    Cochran, Hon. Thad...........................................    40
    Harkin, Hon. Tom.............................................    42
    Leahy, Hon. Patrick J........................................    44
    Collins, Hon. D. Michael.....................................    45
    Weeks Duncanson, Kristin.....................................    46
    Fisher, Trudy D..............................................    66
    Matlock, Marty D.............................................    92
    McMahon, Sean................................................    96
    Weller, Jason................................................   106
Document(s) Submitted for the Record:
Stabenow, Hon. Debbie:
    National Association of Conservation Districts, prepared 
      statement..................................................   118
    National Association of Clean Water Agencies, prepared 
      statement..................................................   121
    Michigan Farm Bureau, prepared statement.....................   139
Boozman, Hon. John:
    4R Farmers & The Lake, Sustainable Crop Nutrition for the 
      Western Lake Erie Basin....................................   141
    4Rs of Nutrient Stewardship, Economically, Environmentally & 
      Socially Sustainable Crop Nutrition........................   142
    U.S. Corn Production and Nutrient Use on Corn................   143
    The Fertilizer Institute, Nourish, Replenish, Grow...........   144
Matlock, Marty D.:
    Resume of Marty D. Matlock, Ph.D., P.E., B.C.E.E.............   147
    Field to Market, The Keystone Alliance for Sustainable 
      Agriculture................................................   157
Weller, Jason:
    Helpful Websites.............................................   336
    Chiefs presentation to the Senate Agriculture Committee on 
      Agriculture, Nutrition and Forestry........................   337
Question and Answer:
Weeks Duncanson, Kristin:
    Written response to questions from Hon. Debbie Stabenow......   348
    Written response to questions from Hon. Amy Klobuchar........   349
Matlock, Marty D.:
    Written response to questions from Hon. Debbie Stabenow......   351
    Written response to questions from Hon. Amy Klobuchar........   353
McMahon, Sean:
    Written response to questions from Hon. Debbie Stabenow......   355
Weller, Jason:
    Written response to questions from Hon. Debbie Stabenow......   360
    Written response to questions from Hon. Patrick J. Leahy.....   384
    Written response to questions from Hon. Amy Klobuchar........   388
    Written response to questions from Hon. Michael Bennet.......   389
    Written response to questions from Hon. Joe Donnelly.........   392
    Written response to questions from Hon. Thad Cochran.........   393
The Fertilizer Institute:
    Written response to questions from Hon. Debbie Stabenow......   397


 
                        FARMERS AND FRESH WATER:

                       VOLUNTARY CONSERVATION TO

                      PROTECT OUR LAND AND WATERS

                              ----------                              


                      Wednesday, December 3, 2014

                              United States Senate,
          Committee on Agriculture, Nutrition and Forestry,
                                                     Washington, DC
    The Committee met, pursuant to notice, at 10:03 a.m., in 
room 328A, Russell Senate Office Building, Hon. Debbie 
Stabenow, Chairwoman of the Committee, presiding.
    Present: Senators Stabenow, Brown, Klobuchar, Bennet, 
Donnelly, Roberts, Boozman, Hoeven, Johanns, and Thune.

STATEMENT OF HON. DEBBIE STABENOW, U.S. SENATOR FROM THE STATE 
 OF MICHIGAN, CHAIRWOMAN, COMMITTEE ON AGRICULTURE, NUTRITION 
                          AND FORESTRY

    Chairwoman Stabenow. Good morning. Our Committee will come 
to order. I apologize in advance that, as our witnesses know, 
votes have been called actually for 10 o'clock. I don't know if 
they have started. Have we started the votes yet? But we are 
going to proceed with opening statements. I know that Senator 
Brown wants to say a word of welcome to the mayor of Toledo, 
and then if the vote is ongoing, we will have to recess. There 
are a series of votes, and so we will then ask our witnesses to 
be patient. We have some coffee in the back to keep you awake, 
and we'll be back as soon as we can to continue the hearing. So 
we are very glad you are here on a very, very important topic.
    Among our Earth's natural resources, water is fundamental 
to human survival, and we all know that. Right now we have a 
water crisis in our country that operates on two fronts. The 
one most people tend to talk about, is a crisis in water 
quantity, and we certainly see this right now in many places in 
the country, certainly in California where the drought is one 
of the worst in the history of the State. The second--and the 
focus of this hearing--is around water quality.
    This has long been an issue for those of us who live around 
the Great Lakes. We have water, but we are deeply concerned 
about water quality issues. We got a stark wake-up call this 
summer when the Greater Toledo area--with a population nearly 
as large as Washington, DC--as the mayor will talk about, could 
not drink their water, could not use the water to cook, could 
not wash their hands or brush their teeth or take a shower 
because the water was contaminated with toxins from a serious 
algae bloom in Lake Erie. We are very glad the mayor of Toledo 
is able to join us today to talk about what happened.
    Coming from Michigan, I feel a strong connection, of 
course, to the Great Lakes. All of my life I have seen how our 
lakes sustained our economy, from manufacturing to agriculture 
to tourism. The lakes are where we live, where we play, where 
we work. They are part of our identity and, frankly, our 
lifestyle and way of life.
    Scientists tell us that the lakes were created during an 
Ice Age some 15,000 years ago--a thawing that coincided with 
the discovery of agriculture. Today the Great Lakes provide 84 
percent of North America's surface fresh water. This vital 
resource has passed from generation to generation, just as 
generations of Americans have relied on the waters of the 
Mississippi River, the Chesapeake Bay, and so many other 
important waters in our country.
    Yet our generation has the most urgent responsibility to 
conserve those waters. If we are going to solve this, we have 
to take action on climate change. We have to look at the 
nutrients going into our lakes, rivers, and streams.
    Our farmers want to be a part of the solution, and, in 
fact, they are, which is why we made conservation an important 
priority in the 2014 farm bill.
    While there is no single solution, no silver bullet that 
will resolve this crisis, we know that working together and 
sharing our knowledge will help us to develop strategies 
capable of making a broad impact on the quality of our water.
    Our panel of speakers have been assembled with that goal in 
mind. Considering that 1.5 million jobs are directly connected 
to the Great Lakes, our workers and our economy cannot afford 
another disaster on a scale of the one in western Lake Erie.
    No group understands the importance of water and soil 
quality more than our Nation's farmers and ranchers, and no one 
has more at stake than our farmers and ranchers. Agriculture 
has played a critical role since the 1935 farm bill, when 
Congress created the Soil Conservation Service in response to 
the Dust Bowl.
    The 2014 farm bill represents the largest investment yet in 
the conservation of private working lands critical to 
maintaining not just clean water, but clean air, wildlife 
habitats, forests, and other natural resources.
    We expanded the role of partnerships so that farmers can 
team with university researchers, the private sector, 
conservation organizations, and all levels of government to 
find creative solutions to improving water quality.
    We know that farming is one of the riskiest businesses in 
the world, and farmers cannot gamble on the future of their 
access to clean water and neither can we as consumers.
    In 1746, in his version of Poor Richard's Almanac, Benjamin 
Franklin said: ``When the well is dry, we know the worth of 
water.''
    We have two excellent panels today. We look forward to your 
testimony as we begin this important discussion.
    I would now like to turn this over to Senator Boozman. 
Unfortunately, our distinguished Ranking Member, Senator 
Cochran, is not able to be with us today, but we are fortunate 
to have my good friend Senator Boozman to give opening remarks, 
and we also will have him introduce our witnesses from Arkansas 
and Mississippi. So, Senator Boozman.

STATEMENT OF HON. JOHN BOOZMAN, U.S. SENATOR FROM THE STATE OF 
                            ARKANSAS

    Senator Boozman. Well, thank you, Madam Chair, and we 
really do appreciate you calling this hearing to help us better 
understand the issues involving voluntary efforts by farmers 
and landowners to promote land and water conservation, with a 
focus on water quality and the role of conservation 
partnerships.
    We appreciate the participation of our witnesses. I am 
especially pleased that we have Dr. Marty Matlock from Arkansas 
here to offer his insight on the important issue of 
conservation and water quality. In Arkansas, individuals across 
the spectrum with diverse views on water quality issues and 
policies know that Dr. Matlock is a credible voice on 
scientific issues relating to water quality. As a distinguished 
professor at the University of Arkansas, Dr. Matlock has 
extensive experience working in urban, agricultural, and rural 
systems with ecologists, engineers, architects, scientists, 
economists, and business leaders to solve complex conservation 
challenges.
    I am also pleased to introduce another distinguished 
witness, Trudy Fisher, who has traveled from Mississippi to be 
with us today. Most recently, Ms. Fisher served as the 
executive director of the Mississippi Department of 
Environmental Quality for 8 years where she managed a staff of 
more than 400 people, a budget of over $250 million, and led 
the agency through multiple natural and manmade disasters. Ms. 
Fisher formed and led the Mississippi Delta Sustainable Water 
Task Force, which brings local, State, and Federal partners to 
the table to address water quality and water issues. Ms. Fisher 
recently returned to private practice.
    As the recent farm bill is implemented, we need USDA to 
listen carefully to the feedback from producers and work to 
make the implementation go smoothly as we go forward. We also 
need regular feedback here in Congress of any issues that 
arise. We all know that producers are the number one advocates 
for common-sense conservation practices because they rely on 
the land and water for their livelihood. We also know that the 
private sector plays a critical role on this front as well.
    For instance, Delta Plastics in Little Rock, Arkansas, has 
developed the Water Initiative, the H2O Initiative, which 
brings together relevant stakeholders from agriculture, 
universities, conservation groups, and many others in an effort 
to help farmers in the mid-South reduce water consumption by 20 
percent by the year 2020. This is just one of the many examples 
of efforts around the country to address the critical issue of 
conservation and water quality.
    Another major concern is the EPA's proposed Waters of the 
U.S. rule. The mandates that will flow from this rule will have 
a devastating impact on farm families, which is why people like 
the Farm Bureau and so many other organizations consider it one 
of the most serious and consequential policy issues under 
debate right now. It will not just impact farm families. It 
will impact all low-income families who need access to 
affordable food. I hope that we can have an open dialogue that 
will help us better understand ways to improve upon our efforts 
to address these important issues and ensure that we have smart 
policies in place to support our agricultural community.
    I am encouraged by the panel we have assembled today and 
very much look forward to hearing your testimony.
    I yield back, Madam Chair.
    Chairwoman Stabenow. Thank you very much, Senator Boozman, 
and we are so pleased to have Dr. Matlock and Ms. Fisher here.
    I would now like to turn to Senator Brown to introduce the 
mayor.
    Senator Brown. Thank you, Madam Chair and Senator Boozman. 
I will be brief because I know we have got to run, and I 
apologize also to the panel again for the way that things ended 
up being scheduled. Thank you all for coming.
    I appreciate so much Chairwoman Stabenow's emphasis on the 
Great Lakes. Nothing matters, there is no more important 
resource in this country, other than human beings, than the 
greatest body of fresh water in the world. We know what 
happened, the mayor will explain what happened in Toledo, this 
tragedy that we should never allow to happen in a country this 
rich. It partly happened in Toledo because Lake Erie's depth 
around Toledo and the Western Basin is only about 30 feet. It 
is draining an area in Ohio of about 4 million acres, a lot of 
farmland, a lot of runoff, a lot of industry, a lot of 
commercial activity, a lot of population. Contrast that with 
Ms. Weeks' Lake Superior, which has an average depth of about 
600 feet, and it mostly drains forests. So you can see 
particularly with climate change and the sort of torrential 
downpours that happened this year and are happening more and 
more as a result of climate change, coupled with the hot summer 
and all the things that happened, and the mayor will explain 
that more.
    For my brief introduction of the mayor, his career has been 
all about public service: a Toledo police officer for more than 
almost three decades, Toledo City Council, and now the mayor of 
Toledo. He is already--I think that police officers are trained 
to both anticipate and deal with crises. Mayors are not so 
trained to anticipate and deal with crises perhaps, but the 
mayor has done marvelously in his time. Early in his term--he 
has not been mayor that long, but early in his term he had one 
of the worst snow emergencies in Toledo recently or maybe ever 
in history, areas that were just--incredible what happened. He 
also early in his term had two firefighters who were killed in 
the line of duty, and then he had this issue with Lake Erie and 
500,000 people in the city and outside the city that lost their 
drinking water for 2-1/2 days. So he has already made a 
difference for our city and our State, and I am proud that 
Mayor Collins has joined us today.
    Chairwoman Stabenow. Thank you very much, Senator Brown. I 
am sure the mayor would just as soon not have had so many 
opportunities to show leadership. It has been a challenging 
time.
    Let me introduce our final two witnesses before we recess 
for the votes. We are so pleased to have our next witness, Ms. 
Kristin Weeks Duncanson, who is the owner and partner of 
Duncanson Growers, a diversified farm family operation located 
in Mapleton, Minnesota. I know that Senator Klobuchar hopes to 
be with us today so she can greet you as well. She is the 
immediate past chair of the Minnesota Agri-Growth Council, past 
president of the Minnesota Soybean Growers Association, former 
director of the American Soybean Association. She is a member 
of the Carbon Market Working Group, sits on the board of AGree, 
an organization focused on driving positive change in food and 
agricultural systems. So we are so pleased that you are with 
us.
    Then last, but certainly not least, I am pleased to 
introduce Sean McMahon again to us--we are so pleased to have 
you with us--who is the executive director of the Iowa 
Agriculture Water Alliance, a clean water initiative supported 
by the Iowa Corn Growers and the Iowa Soybean Association and 
the Iowa Pork Producers Association. Mr. McMahon has worked on 
natural resources policy for over 20 years in a variety of 
roles. Before joining the Iowa Agriculture Water Alliance, he 
was a North American agriculture program director at the Nature 
Conservancy where he worked on strategies to make sure 
agriculture was more environmentally sustainable, and through 
advocacy in the farm bill played a very important role, and we 
appreciate it very much. Before that, he worked for the 
National Wildlife Federation, the National Audubon Society, the 
Department of the Interior, and is currently a member of the 
Farm Foundation Roundtable and serves on the Advisory Board for 
the U.S. Soybean Export Council. So many hats, and we are very 
pleased to have you with us at this point.
    So we thank our distinguished panel. We appreciate your 
patience. Right now the vote is underway, so we will recess for 
the votes, and then we will come back and appreciate your 
testimony.
    [Recess.]
    Chairwoman Stabenow. The Committee will reconvene and come 
to order. We thank you very, very much for your patience, and 
we are now at a point where we can focus on this very important 
topic.
    As I indicated in the beginning, we today are focused on 
water quality issues. We know there are a variety of issues 
that are important related to our waters, and today we want to 
focus on one of the two pillars, which is water quality.
    We know other members are coming, but in the interest of 
time, we will proceed at this point. Let me start by asking 
Sean McMahon and Dr. Marty Matlock a question. When we are 
looking at the fact that we are supporting 1.5 million jobs and 
generating $62 billion in wages from the Great Lakes and all of 
the efforts that are going on, and looking at the surrounding 
States and the country as a whole, we know how critical clean 
water is. I have a very straightforward question for both of 
you: Can farmers and ranchers make a measurable improvement in 
water quality by adopting voluntary conservation practices?
    Mr. McMahon. Yes, they certainly can----
    Chairwoman Stabenow. Oh, excuse me. Do you know what? I 
went right into questions and did not give you a chance to do 
opening statements. We had done our opening statements, and so, 
well, hold the thought then on the question. Why don't we do 
that? Now you know what the question is.
    We want to hear from you, so let us start with the mayor of 
Toledo, the Honorable Michael Collins. Mayor, we appreciate 
very much your coming in. I really was not trying to cut you 
off from not hearing your testimony. So, please.

 STATEMENT OF HONORABLE D. MICHAEL COLLINS, MAYOR, TOLEDO, OHIO

    Mr. Collins. Thank you, Chairman Stabenow and esteemed 
members of the Senate Agriculture, Nutrition and Forestry 
Committee. It is a privilege and an honor for me to be allowed 
to testify before you today.
    On the weekend of August 2, 2014, the city of Toledo made 
headlines both nationally and, quite honestly, internationally 
when we were impacted by harmful algae blooms or algal blooms. 
It created a situation for us where we had to execute a ``Do 
Not Consume'' order. The order was impacted by over half a 
million consumers of our public water system, which includes 
northwestern Ohio and parts of southeast Michigan.
    We weathered the 72-hour incident because our community 
pulled together. There was no violence, and we had no 
reportable illness as a result of this experience. Water was 
supplied to those who were in need; the stores were restocked; 
and on Monday at 9 o'clock in the morning, we were able to 
execute and rescind the consumption situation. Toledo has taken 
those additional steps to prevent our water supply from being 
impacted by the microcystin toxin that is a result of the algal 
blooms.
    Our community was impacted financially, well over $2.5 
million from grocery stores where their produce was sprinkled 
with water to the restaurant and the hospitality trades. We as 
a city experienced--because of the additional chemicals which 
were needed, carbons and so forth, we had not expected this 
through our budget, but we had experienced millions of dollars 
of additional costs in order to continually use the chemicals 
necessary to stabilize that water that we so proudly serve a 
half a million people with.
    I am here today as the mayor of Toledo. I would love the 
pictures of the lines of those waiting for water or the images 
of that glass of water which made national news being held up, 
looking like pea soup. I would like to see that forgotten. 
However, the truth of the matter is if we forget what happened 
in Toledo, it is destined that we will repeat it.
    Toxic algal blooms are not new. We have as a Nation--and I 
repeat, we have as a Nation failed in studying the reasons why 
they continue and to take the steps to reduce or eliminate 
their occurrences. In my humble opinion, the experiences we had 
in Toledo is characteristic to the canary in the coal mine. 
There are many theories as to why, but we have not identified 
all the causes. Phosphorus in Lake Erie has been reduced, but 
it remains, though. We have other issues.
    The new formulations of fertilizers, Open Lake dredging, 
invasive species interfering with the ecology of the lake, mega 
cattle and hog and chicken farms, and septic tank failures all 
obviously must have some role in this, as well as municipal 
sewage treatment plants.
    This is not a Toledo problem, and actually it is not an 
Ohio problem. It is an international problem. More than 80 
percent of the water in Lake Erie comes from the Great Lakes to 
the west and north via the Detroit River. Standards developed 
by the World Health Organization in 1996 have not been 
evaluated nor have they been confirmed by our Federal EPA. 
Testing is not standardized or even required as it relates to 
all areas of our Nation as to the algae blooms themselves. I 
urge Congress to work together with the administration to 
recognize that Lake Erie and our Great Lakes are national 
treasures and to make our region's water quality issues a 
priority by taking the following actions:
    First, provide additional research funding to develop what 
are the causes and what are the solutions for improving water 
quality.
    Secondly, the EPA should set a Federal water quality 
standard for toxic algae blooms.
    Thirdly, the Federal Government must--and I repeat, must--
prioritize and target funding for infrastructure and 
conservation funding to those watersheds that most effectively 
affect Lake Erie. If we continue to delay, the harm may become 
irreparable.
    Thank you for allowing me to share this information and to 
have been put into your record, and I would be happy to take 
any questions which you may have at any point today.
    [The prepared statement of Mr. Collins can be found on page 
45 in the appendix.]
    Chairwoman Stabenow. Well, thank you very much.
    As Ms. Kristin Weeks Duncanson is going to be giving her 
testimony, I would also like to recognize Senator Klobuchar for 
a welcome.
    Senator Klobuchar. Thank you. Thank you so much, Chairwoman 
Stabenow. Thank you so much for inviting Kristin Weeks 
Duncanson today from the State of Minnesota. She is going to be 
talking about some of the new technologies and partnerships 
that she is using to improve water quality. You should know 
that she and I actually attended high school together. She was 
a year older, but I will not say what years we graduated. She 
is an owner and partner of Duncanson Growers, a family farm 
located in southern Minnesota that raises soybeans, corn, 
vegetables, and hogs. She is also the immediate past chair of 
the Minnesota Agri-Growth Council and was a member of the 
Minnesota Soybean Association for 10 years before being named 
the soybean growers president in 2002.
    She served as a staff member for former U.S. Senator 
Rudolph Boschwitz and is a graduate of the University of 
Minnesota Humphrey Institute Public Policy Fellowship Program. 
She currently serves as a member of the AGree Advisory 
Committee--we need more agreement here--which is a diverse 
coalition of ag thought leaders supporting innovation in our 
food system, and we are really pleased to invite you to the 
Committee today.
    Thank you.
    Ms. Weeks Duncanson. Great, and thank you very much for 
that kind introduction.
    Chairwoman Stabenow. I will just add that any information 
you have about Senator Klobuchar that we could use on the side 
would be helpful.
    [Laughter.]
    Ms. Weeks Duncanson. Well, we took piano lessons from the 
same piano teacher, so we can----
    Chairwoman Stabenow. Recitals.
    Ms. Weeks Duncanson. Yes, so we will talk later.

STATEMENT OF KRISTIN WEEKS DUNCANSON, OWNER/PARTNER, DUNCANSON 
                  GROWERS, MAPLETON, MINNESOTA

    Ms. Weeks Duncanson. Thank you very much. For those of you 
in the room, too, I would like to introduce my husband, who is 
sitting behind me, who once was my intern in this fine 
institution back a long time ago. So thank you, and thank you, 
Chairman Stabenow and members, for letting us be here today and 
to share the opportunity with you today on a farmer's 
perspective on how stewardship of working lands can improve 
water quality.
    For many years, we in the agricultural community have a 
deep and abiding stewardship of our own land, and it runs 
through our veins. It is a tradition passed through the 
generations, and we are very proud of it.
    Farmers and landowners working together to manage our water 
resources also goes back many generations. In Minnesota, we use 
a ditch system. Our challenge with water is usually too much 
and not too little water. Though for many years we focused 
entirely on making sure we had infrastructure to move excess 
water off our land, we have learned in more recent years that 
we need to make sure that we do that in a way that does not 
lead to erosion of streambanks or filling up the streams with 
eroded soils and excess nutrients.
    My farming community lies in both the Blue Earth and Le 
Seuer watersheds. They flow into the Minnesota River and on to 
the Mississippi, which is about 80 miles away. We have worked 
together on Blue Earth County Ditch 57. A few years ago, we 
designed a two-tiered ditch system with a holding pond and 
planted native grasses that gets the water off our fields but 
slows the water down and absorbs the nutrients it carries with 
it. This improves water quality downstream.
    The process for the new Ditch 57 was neither quick nor 
easy. It took several years of negotiating with the owners, 
getting a design, funding, and approvals. But the outcomes 
achieved were increased productivity for the working lands and 
a decrease in flooded areas in both the farm fields and many of 
the houses in the nearby town.
    We and many of our neighbors are starting to use cover 
crops to build the health of our soils, which are the 
foundation of our productivity and profitability. Cover crops 
also help keep both sediment and nutrients out of the water. By 
retaining nutrients in the soil, we use less fertilizer, which 
also contributes to our bottom line.
    We are learning more and more that we need to do 
conservation differently if we are to be sure that we are doing 
what is needed to improve water quality while maintaining and 
improving our productivity and profitability over the long 
term. Forward-looking producers and landowners are ready to 
provide that leadership.
    We need to focus on water quality outcomes at the watershed 
level, not just as individual operators. Producers, with 
technical support from universities, agencies, or the private 
sector, need to measure baselines regarding both agricultural 
practices and environmental outcomes at multiple scales and 
measure the change over time.
    Producers need to work together to identify what a basic 
standard of stewardship should look like in their watersheds, 
which performance standards or practices should be expected of 
producers regardless of cost share being available.
    We need to focus cost share and public dollars on the 
structural practices needed to achieve the outcomes and put 
them where they can achieve the most cost-effective impact.
    Government needs to do things a little differently too: 
prioritizing resources to where the natural resource problems 
are found; investing in collecting baseline data and monitoring 
change over multiple scales; providing regulatory certainty to 
those producers who voluntarily demonstrate continuous 
improvements to achieve water quality goals; and sharing data 
more freely among the agencies within USDA, other agencies, 
universities, and the private sector so that we can better 
understand the relationship between conservation practices, 
yield resilience, and environmental outcomes in specific 
agronomic circumstances.
    Of course, we must ensure that proprietary data remains 
private and that data voluntarily shared cannot be used for 
regulatory action. As a member of the Advisory Committee of 
AGree, an effort that brings together a variety of producers 
with companies along the food and ag supply chain, 
environmental organizations, and public health and 
international development experts, I have worked with other 
producers to develop an approach we believe can successfully 
engage farmers and ranchers in achieving improved outcomes in 
working landscapes.
    What we are calling Working Lands Conservation Partnerships 
would be producer-led, watershed-scale, cooperative effort to 
enhance both long-term productivity and improve environmental 
outcomes in a manner that can be recognized both by the public 
and private agencies as well as the supply chain. The 
information is summarized in an infographic that is in my 
written testimony.
    The Regional Conservation Partnership Program in the farm 
bill of 2014 is an excellent example of a Federal program that 
aligns with our conservation approach.
    I appreciate the opportunity to be here today and welcome 
any questions that you would have.
    [The prepared statement of Ms. Weeks Duncanson can be found 
on page 46 in the appendix.]
    Chairwoman Stabenow. Thank you very much.
    Dr. Matlock, welcome.

   STATEMENT OF MARTY D. MATLOCK, PH.D., EXECUTIVE DIRECTOR, 
      OFFICE FOR SUSTAINABILITY, UNIVERSITY OF ARKANSAS, 
                     FAYETTEVILLE, ARKANSAS

    Mr. Matlock. Chairwoman Stabenow, Ranking Member, members 
of the Committee, Senator Boozman, thank you for having us 
here.
    I am anxious to get to the questions and answers, the 
discussion point, too, so I just want to say that I have never 
been more optimistic about the ability of our landholders 
across the United States to make positive improvements on our 
water quality and the landscape, not because of a regulatory 
framework we are imposing but because of the awareness through 
shared information and through a common understanding of our 
common impacts on water quality and the benefits we derive from 
that ecosystem service at the watershed level. We are seeing 
incredible engagement, unprecedented engagement, voluntary 
engagement across the landscape.
    I would like to differentiate, though, that compliance with 
conservation practices with NRCS really are more incentivized 
than voluntary. As we know, under the 2014 farm bill, we have 
incredible incentives for participation and, in fact, if you do 
not engage in conservation practices, you are disqualified from 
participating in many of those critical elements of the farm 
bill. So it is really not a voluntary program so much as an 
incentivized program.
    I do want to celebrate one initiative that I think is 
particularly exemplary in how our landowners and agricultural 
value chains are engaging together to make things better in the 
landscape. That is the Field to Market Alliance for Sustainable 
Agriculture. You have this in my statement. You also have it in 
my contributions to the packet. The Field to Market Alliance 
for Sustainable Agriculture's key performance indicators, this 
is a multi-stakeholder initiative that engages folks from 
producers across soybean, corn, cotton, wheat, and other crops 
all the way to biotech companies and retailers--McDonald's, 
Walmart, others. It includes conservation organizations--World 
Wildlife Fund, Conservation International, the Nature 
Conservancy--that is where Sean and I met--as well as many 
other organizations, to try to figure out what we have to do to 
sustain our prosperity from the land without eroding the 
biodiversity and other ecosystem services upon which our 
prosperity depends.
    This organization is developing key performance indicators 
that are voluntarily adopted by producers across the landscape 
and developing strategies for targeted implementation. As the 
mayor indicated, not all ecosystems are equal. Some are more 
sensitive than others. I was in Brazil at the Global Roundtable 
for Sustainable Beef 2 weeks ago, and I heard a term that I had 
not heard before, but I love it: ``glocal.'' We must think 
globally and act locally. We all understand that. We have 
global problems, and they require local solutions. Local 
solutions means we cannot paint the problems with one brush. We 
have to understand the local implications, and we have to have 
the freedom to implement solutions, to explore solutions, and, 
frankly, to fail occasionally so that we can learn and get 
better.
    Continuous improvement is the hallmark of sustainability. 
We need a process so that we can continuously improve 
sustainability across our water quality and our landscape. The 
landscape is changing, and it is changing fast, and it is not 
just agricultural producers that are changing it. We have to be 
able to be responsive to all of those elements.
    Thank you.
    [The prepared statement of Mr. Matlock can be found on page 
92 in the appendix.]
    Chairwoman Stabenow. Thank you very much.
    Ms. Fisher, welcome.

   STATEMENT OF TRUDY D. FISHER, FORMER EXECUTIVE DIRECTOR, 
  MISSISSIPPI DEPARTMENT OF ENVIRONMENTAL QUALITY, RIDGELAND, 
                          MISSISSIPPI

    Ms. Fisher. Thank you. Madam Chairwoman, if I could be so 
bold as to jump right in there and follow your style, I would 
like to say yes, not only can farmers voluntarily deal and 
address and improve water quality, but they actively are all 
across the country.
    I want to share with you why this issue is so important to 
the State of Mississippi and our producers and our 
organizations that we work with. I thoroughly enjoyed my visit 
to the Great Lakes Region, but I am going to move our thinking 
down South a little bit and focus on the lower Mississippi 
River States.
    Our State is only one of two States that borders both the 
Mississippi River and the Gulf of Mexico. The Mississippi River 
and the Yazoo River form over 7,000 acres of the very rich, 
fertile Yazoo-Mississippi River Delta. It is a huge economic 
engine, a driver for not only our State but also the country, 
as well as the Gulf of Mexico. We recognized many years ago 
that what happens on our land directly impacts what happens on 
the Mississippi River and in the Gulf of Mexico. So we have 
been very proactive in addressing how do we deal with nutrient 
reduction? How do we deal with nitrogen and phosphorous on our 
lands and in our runoff water? Also, as a reminder, everything 
that we are talking about in a way runs downhill right by our 
State.
    We learned, just like Dr. Matlock said--and I share his 
enthusiasm--there is so much going on where? At the local 
level, at the grassroots level. We found early on that it takes 
the collaborative nature, a voluntary approach of your 
producers, of your Federal organizations, and your local 
partners to really address how do you go about reducing 
nutrients. What is the strategy?
    You know, there are conservation practices that have been 
in the NRCS program for years, and so we worked with our 
producers, with NRCS, our State Soil and Water Conservation 
District. What are the practices that work the best? What is 
achievable? What is the cost?
    But you cannot just look at the cost. You have to look at 
the value of the conservation practices. Then what is the value 
to the stakeholder, to the producers? Because you have to have 
that buy-in. You have to have the dialogue and the buy-in for 
any effort such as this to work.
    We have been very pleased with our collaborative efforts 
and what we have actually done on the ground in Mississippi. 
Some of the practices that I would like to talk about are just 
very basic farming practices that make a difference on water 
quality and quantity.
    Land leveling. Obviously, the Mississippi Delta, it is 
flat, it is level. But is it really? You know, and so there are 
techniques such as land leveling that improves your irrigation 
practices, that reduces your runoff. These are programs that 
are supported by NRCS.
    The ubiquitous ditch that we all have all across our 
farming country, farming land, how do you deal with the 
ditches? How do you slow the water down? How do you re-use the 
water? How do you get better drainage, whether it is too little 
or too much? How do you focus on improving that channel so that 
it controls the runoff and lessens the impacts to the river and 
to the Gulf of Mexico? Again, these are practices that are 
supported by NRCS.
    I know that Chief Weller will be talking later in another 
panel about all the various practices, but they truly make a 
difference. But you have to be able to demonstrate that you are 
having measurable results. You know, our State environmental 
agencies all across the country, we know it is working, but you 
have to have the outcome and the results to show what you are 
achieving. So we are very happy in Mississippi that we are at 
that point now that we are able to demonstrate the successful 
reduction of nutrients into the water, into the Mississippi 
River and the Gulf of Mexico. We are working with other States.
    Just like the other panelists have said, one size does not 
fit all. As all of you know from your own States, each of your 
States are regions within regions, and it is the same way in 
dealing with hydrogeology. You have to look at your State. You 
have to look at your individual watershed and what works. So we 
can learn from one another, but let us take a local grassroots 
approach to addressing the issues of stormwater runoff.
    But, yes, it is--is it working? Yes. The issue is I think 
that we have--and I would ask the Committee to look at--we have 
in our State, I know probably all across the Mississippi River 
Basin States, a higher demand for the NRCS conservation 
practices than there is actually funding. I would like at one 
point later to talk about what are some opportunities to make 
sure that those meaningful conservation practices that are 
working continue to have the funding so they can be accessed in 
a voluntary way by our producers across the country.
    Thank you.
    [The prepared statement of Ms. Fisher can be found on page 
66 in the appendix.]
    Chairwoman Stabenow. Thank you very much.
    Certainly again, last but not least, we are glad to have 
Mr. Sean McMahon here. Welcome.

STATEMENT OF SEAN MCMAHON, EXECUTIVE DIRECTOR, IOWA AGRICULTURE 
                  WATER ALLIANCE, ANKENY, IOWA

    Mr. McMahon. Good morning, Chairwoman Stabenow and members 
of the Committee. Thank you for the opportunity to provide 
testimony and present my views to the Committee today.
    I would like to thank the Committee for its work earlier 
this year and dating back to the last two Congresses to pass a 
bipartisan farm bill that contained the strongest Conservation 
Title in history. This is the first farm bill to ever have more 
funding in the Conservation Title than the Commodities Title.
    The 2014 farm bill also includes an innovative new program 
called the Regional Conservation Partnership Program. This 
program codifies the principle of targeting conservation 
practices to where they can have maximum impact and ushers in a 
new era of public-private partnerships.
    The recent farm bill also recouples crop insurance with 
conservation compliance for the first time since 1995, which 
will ensure more soil conservation on highly erodible lands 
while helping to prevent wetlands from being drained and native 
prairie from being plowed.
    I would like to thank the entire Committee for their 
excellent work on the recent farm bill, but in particular I 
would like to single out the Chairwoman for her tremendous 
persistence and tireless efforts to pass this historic 
legislation.
    As executive director of the Iowa Agriculture Water 
Alliance, I am partnering with many organizations, including 
the Natural Resources Conservation Service, to help to 
implement the farm bill and deliver conservation more 
effectively in Iowa. The Iowa Agriculture Water Alliance was 
launched in August of this year, and it was created by three 
leading Iowa agricultural associations: the Iowa Corn Growers 
Association, Iowa Soybean Association, and Iowa Pork Producers.
    The purpose of the Iowa Agriculture Water Alliance is to 
increase the pace and scale of implementation of the Iowa 
Nutrient Reduction Strategy. The Iowa Strategy, which was 
released in May 2013, is a science-based framework to assess 
nutrient loading and reduce the impacts of excessive nitrogen 
and phosphorous to Iowa waters and the Gulf of Mexico. The Iowa 
Strategy directs efforts to cost effectively reduce surface 
water nutrients from both point sources, such as wastewater 
treatment and industrial facilities, and nonpoint sources, such 
as farm fields. This coordinated approach between the point 
source and nonpoint source strategies allows for collaboration 
among agricultural, municipal, and industrial interests to meet 
the overall goals of the strategy in a cost-effective manner.
    The strategy calls for overall reductions of nitrogen and 
phosphorous loads to Iowa waters and the Gulf of Mexico by at 
least 45 percent, a 41-percent decrease in nitrogen and a 29-
percent decrease in phosphorus from nonpoint sources, primarily 
from reducing nutrient loss in agricultural runoff.
    The strategy also calls for a 4-percent reduction of 
nitrogen and a 16-percent reduction in phosphorous from point 
sources. The strategy continues reliance on voluntary 
conservation activities for nonpoint runoff.
    There have recently been increasing calls to regulate 
agriculture under the Clean Water Act. Our current voluntary 
approach to private lands conservation is under increasing 
pressure and criticism. I personally believe that regulating 
nonpoint agricultural runoff in Iowa would be a very expensive 
and ineffective experiment due to both the scale and 
variability of agriculture in Iowa.
    The Iowa Agriculture Water Alliance is collaborating with 
many committed partners to pursue voluntary approaches to 
implementing the Iowa Strategy and reducing nutrient loss.
    Advancing the goals of the Iowa Strategy is a daunting 
challenge. It will take many committed partners and many years 
to realize 45-percent reductions in nitrogen and phosphorous in 
our waterways. It is important to remember that we have had a 
century and a half of impacts of agriculture on our water 
quality, and there is a great deal of ``legacy'' nutrients and 
sediment in our waterways. Yet Iowa farmers are committed to 
helping lead an effort based on sound science that will fulfill 
the goals of the strategy and help to improve water quality 
both in Iowa and downstream to the Gulf of Mexico.
    It will take new revenue streams and partnerships with the 
private sector and municipalities to fully fund and implement 
the strategy. Public sector funding from NRCS and IDALS is 
important, but that alone is not adequate. We are engaging with 
additional private sector and public-private partnerships 
around nutrient stewardship, soil health, and sustainability to 
help promote conservation practices that improve water quality.
    As more producers understand that there is a strong value 
proposition inherent in conservation practices that improve 
productivity and profitability over time, adoption rates for 
those practices will increase dramatically. At the same time, 
additional funding is needed to incentivize structural 
practices that take land out of production. It will require a 
combination of in-field, edge-of-field, and in-stream practices 
to achieve the goals of the strategy.
    Thank you for the opportunity to present my views before 
the Committee. I sincerely appreciate this Committee's 
invaluable work to promote conservation on our Nation's private 
lands and help America's farmers to meet the growing domestic 
and international demand for food, feed, fiber, and fuel in an 
increasingly sustainable manner.
    [The prepared statement of Mr. McMahon can be found on page 
96 in the appendix.]
    Chairwoman Stabenow. Thank you very much to each of you, 
and I think actually you have answered my first question, so I 
am going to go on from there and ask Ms. Duncanson, in the past 
you said that farmers need to step up and take the lead to 
address nonpoint water pollution, and I am wondering, as we 
look at ways to do that and encourage and support farmers and 
ranchers, can you describe the best ways to actually increase 
that participation?
    Ms. Weeks Duncanson. It is an interesting question that you 
ask, and we are going to refer to something old in its practice 
called ``peer pressure.'' You know, farmers and ranchers across 
the country, our neighbors are our neighbors, and we oftentimes 
work together, but our neighbors are also our competitors. So 
we need to instill this culture of leadership amongst 
ourselves, and we have seen that done across the country. We 
just maybe have not celebrated it as much as we should and use 
that as a model as we work throughout our Nation in partnership 
with public and private sectors to move ahead with conservation 
as well as using resources for data collection and management 
at USDA while still keeping it private.
    So it can be done, and we are seeing it done, as my fellow 
witnesses today have talked about their areas of the country, 
but good old peer pressure does a lot.
    Chairwoman Stabenow. When you look at long-term financial 
benefits to implementing conservation practices, what do you 
see? You are running a farm in Minnesota. What are the impacts? 
Do you think that other producers understand the financial 
benefits?
    Ms. Weeks Duncanson. You know, it is a story that needs to 
be told over and over again. Some do. Some have not gotten that 
far yet. But if we can build better organic matter in the soil, 
if our soil has better resilience against the changes in 
weather patterns, we are more productive, therefore more 
profitable. Someone mentioned earlier it is the value versus 
the cost of conservation, always instilling that amongst 
producers that there really is an opportunity there.
    Chairwoman Stabenow. Thank you very much.
    Mayor Collins, you are at the other end, so we are talking 
about practices that are important, involvement of farmers and 
ranchers in conservation practices and so on. You are at the 
other end where, in fact, there was a huge problem. I wonder if 
you could speak to the economic impacts of the drinking water 
ban on Toledo businesses, and what you saw. Hopefully this is 
not going to happen again and we are bringing resources to 
bear, but this was a huge issue for your city, your businesses, 
your residents. Talk about the economic impact.
    Mr. Collins. Thank you, Senator Stabenow. The economic 
impact was probably somewhere in the area of $2.2 to $2.5 
million over that weekend. Now, one would say, ``Well, how 
could that possibly be?'' Well, basically, all of the products 
that were in supermarkets, grocery stores, and so forth, that 
required the water being put on, they were all destroyed as a 
result of--because of the residual impact.
    The restaurant/hospitality industry was totally compromised 
because they could not--in this situation, you could not boil 
the water, because if you boiled the water, the only thing you 
would do is you would enhance the microcystin, and that would 
just basically create another problem for you. So you could not 
do that.
    Now, honestly, what happened is, in Toledo, our Lucas 
County Emergency Management Program, they came out and said 
that you could not bathe, you could not--I mean, the 
prohibitions were totally off the wall, and they were not true. 
You could not consume, but for bathing purposes and for other 
purposes--you could not use the water to cook with. So 
basically that was where we were at.
    But in listening to the testimony--and I sincerely respect 
all of the testimony that was given--I am hearing just we need 
more time. I mean, when half a million people are subjected to 
the circumstances we were subjected to, when there was no 
consistency in terms of what test protocols were used, when we 
called for the Ohio EPA and we called for the U.S. EPA, and we 
called basically Homeland Security, we got no support from 
them. Homeland Security told us, ``Oh, you have got to wait 
maybe 72 hours and call us back.'' I mean, that was the type of 
response.
    Fortunately, in Toledo, we had a resilient community, and I 
had a great team, and we were able to get through it. But I 
honestly and truthfully believe that if we give this the debate 
and it stops there, what are we going to say to the next 
community that goes through this?
    I am asking realistically for an Executive order, and I 
understand in Washington, DC, right now Executive orders are 
sort of--it is considered by some a placebo, and it is 
considered by others a poison. But I really and truly believe 
that it is going to take the full force of our Government and 
Canada to evaluate this very important set of circumstances.
    We in Toledo, we process 26 billion gallons of water a year 
from this body of water that I am talking about that was 
compromised. So imagine the impact it has on this Nation. I am 
not suggesting that it is an agricultural issue singularly. I 
would not suggest that. But I really think that the full force 
of our Government should be looked upon to participate with 
Canada and participate with the States that are there and the 
communities.
    Really and truly, do not give this lip service. When I made 
the statement it is the canary in the coal mine, I am very 
sincere with that statement. If you have not lived through it--
and I would pray that no one ever does--you will not have a 
true appreciation of what it is like when you are in a position 
of leadership and you have half a million people asking you for 
explanations.
    Most of the explanations you have to offer them are not 
available because there is no availability to even scientific 
research to advance. So you are just asking them to have faith 
and to hope that they will indeed--and why it turned out the 
way it did I cannot explain. Our crimes of violence went down. 
Our crimes against property went down. The community came out, 
and I saw high school kids and college kids standing the way we 
designed our distribution centers.
    I will end by saying this: When I walked into that command 
center that morning at 1 o'clock on that Saturday, there was 
not one document--not one document from anywhere--that would 
give us a recipe as to how to handle this. We did this strictly 
off the seat of our pants, quite honestly. That should never 
happen again either. With all the money that is spent on 
Homeland Security, to have a complete water system compromised 
and not have any investment in that, in my opinion, is--it just 
does not make good sense.
    Chairwoman Stabenow. Thank you very much. I know this was a 
horrendous situation to be in, and so we appreciate your being 
here and really in stark terms talking about the reality of 
what happens if we do not get this right in terms of water 
quality initiatives and so on. So thank you very much.
    My time is past. I am going to turn now to Senator Boozman.
    Senator Boozman. Thank you, Madam Chair. I ask unanimous 
consent to include a letter and materials from the Fertilizer 
Institute in the hearing record today.
    Chairwoman Stabenow. Without objection.
    Senator Boozman. Thank you.
    [The following information can be found on page 144 in the 
appendix.]
    Senator Boozman. I would second what the Chairman said, Mr. 
Collins, in regard to what you all went through. The good news 
is I am excited that, despite that, we really are hearing a lot 
of positive things that people in agriculture, people in 
development across the board really are starting to get this, 
and we really are seeing significant improvement.
    Dr. Matlock, can you explain the value of technology and 
innovation in making conservation efforts more effective? Maybe 
you could give us some examples of technology and some of the 
innovative things that you have seen.
    Mr. Matlock. Absolutely, Senator, and I absolutely agree 
with the mayor's assertion that we need to understand our 
ecosystems that we depend on more effectively, and I absolutely 
agree with the assertion that we are too fragmented in our 
ability to understand and then manage those ecosystems.
    The technologies that we are seeing emerge at this very 
moment allow us to know better what is happening around us. 
These are sentinel technologies associated with remote sensing, 
either from aerial platforms or even low-altitude 
microsatellite platforms. Our ability to actually track what is 
happening on the landscape has improved over the last year. It 
is happening that fast, and it was transformed the way we 
understand the landscape because we will be able to see the 
landscape real time in very short order. That means anywhere on 
the landscape, not just in very targeted areas. That means our 
ability to understand sources and causality will improve. The 
technology for tracking impacts in water quality, our sensors 
technology, are improving, so we can measure--we do not have 
to--we are getting to the point where we do not have to go into 
the river and collect a sample, take it back to the lab, and 
analyze it and wait for 3 to 5 days before we understand what 
is happening. We can track that and record those processes 
real-time, which means we can intervene when there is an 
emerging problem earlier.
    Algal blooms are ripe for detection with remotely sensed 
technologies, and then the problem is we do not know how to 
interdict them. We do not know what to do to prevent them. As 
the mayor said, we have much to learn, but our ability to 
understand is really limited by our ability to know what is 
happening. Our ability to know what is happening has expanded 
because it is so much cheaper now to deploy technologies, 
sentinel technologies. It is happening on the landscape. 
Farmers have soil moisture sensors that were unimaginable in 
their sensitivity 10 years ago that they are using every day, 
and they are almost throwaway. They almost plow them over 
because they are that cheap. So that is sort of--and the 
telemetry of those technologies is increasing, too, so they are 
Blue-Tooth connected to a data logger. So that is the sort of 
opportunity we have for continued improvement.
    Senator Boozman. I know I was really amazed this past 
summer, when we were on lots of farms, at the use of drones 
that could--low flying, that could gauge whether or not one 
area was not getting irrigation versus another or too much 
irrigating just making all that very, very effective, pesticide 
use, the whole bit. So that is great.
    Ms. Fisher, how does uncertainty impact the participation 
of producers in long-term programs like EQIP?
    Ms. Fisher. Certainty is needed because what we want to 
make sure that we always have in place is, as best we can, what 
is a known playing field on the conservation practices and 
programs that are available, because these take--just like you 
heard us all say, these take time to implement and to get into 
place and then to demonstrate the success.
    What we have been explaining to you today, and as a former 
farmer herself, I would share with you we are talking about 
saving fuel costs, we are talking about saving fertilizer 
costs, we are talking about saving labor costs, just the 
improved technology of the irrigation system itself, which is 
another one of the NRCS practices.
    So you have this wonderful paradigm where you have 
conservation and saving money and efficiency on the farm, and 
in Mississippi, we have been able to demonstrate those cost 
savings multiple times over, and then now taking that and 
replicating that across our State and showing and demonstrating 
how it does make a difference on the bottom line, which was 
recognized it is such a risky industry that when you can have 
any cost savings, and in the name of conservation, it is a 
wonderful opportunity.
    But certainty is--anything that we can do through our 
programs to add that certainty and have those programs stay in 
place is of great value.
    Senator Boozman. Can I ask one more thing?
    Chairwoman Stabenow. Absolutely.
    Senator Boozman. Dr. Matlock, and then anybody else that 
would like to jump in on this after he gets through, tell me 
about your views on nutrient trading and why it has not become 
more widely used.
    Mr. Matlock. I am absolutely happy to share my views on 
nutrient trading. I am on record with this in many cases.
    I think nutrient trading offers the best opportunity--
nutrient trading gives the ability for regulated point sources 
who are permitted under MPDS programs, under the Clean Water 
Act, to engage in a collaboration with other members in the 
watershed who have effects on water quality to collaboratively 
improve water quality through shared costs and other practices 
that could reduce overall loads of nitrogen, phosphorous, 
organic matter, sediment to a system and do it in a more cost-
effective and, frankly, more sustained manner.
    Right now, the challenge is that the uncertainty about who 
actually is regulated under those frameworks prohibits 
engagement. Landowners are reluctant to engaged in a process 
where they do not understand the regulatory risks they are 
engaging in. If it is a simple contractual relationship, 
landowners are engaging in contracts every day. Contracts are 
enforceable and have remedies if there is a violation. 
Regulations are a new world for most farmers in that Clean 
Water Act framework, and I can tell you they do not want any 
part of it, and that is the biggest limitation, that fear that 
they become a regulated body under the Clean Water Act through 
EPA, an organization which they have no historic relationship 
with.
    Senator Boozman. Anybody else?
    Mr. McMahon. Yes, if I may attempt to answer that as well, 
in Iowa we are seeing a number of cities, such as Dubuque, 
Storm Lake, Charles City, and Cedar Rapids, express interest in 
having a framework that EPA and the Iowa Department of Natural 
Resources would approve, which would allow those cities to get 
credit for paying for conservation practices that farmers and 
other private landowners could implement.
    It would not necessarily have to be a trading framework, 
but it is essentially that same thing. You have cities where, 
if they are going to have additional permit requirements to 
reduce their nitrogen and phosphorous, those cities are 
realizing that they can do so more cost effectively by 
partnering with private landowners on green infrastructure than 
if they were entirely to pay for gray infrastructure, very 
expensive capital investments.
    However, there is uncertainty right now, as Marty just 
said, regarding the regulatory framework, and it is not clear 
that those cities would actually get credit for making those 
investments. So we do need to provide more clarity to enable, 
in particular, those wastewater utilities and municipal 
ratepayers to be able to get credit for making investments for 
upstream or downstream conservation practices throughout those 
same watersheds.
    Senator Boozman. Thank you, Madam Chair.
    Chairwoman Stabenow. Well, thank you very much.
    I just have one final question. Then we need to move on to 
our second panel. Mr. McMahon, when you were talking about the 
programs and what you are doing through the alliance, which is 
really terrific, I am wondering how you plan to measure results 
in terms of successful strategies so that they can be 
replicated and used in other areas.
    Mr. McMahon. Well, thank you for the question. So there are 
a number of indicators we will be looking at right up front, 
and one of the most important ones is adoption of conservation 
practices. We need to measure increased adoption of 
conservation practices in terms of acres.
    For the in-field practices where we believe there is a 
strong value proposition for producers, for practices like 
improved nutrient management, no-till, strip-till, and cover 
crops, we are looking to really increase those practices 
throughout the entire State, essentially taking a blanket 
approach for those practices.
    For the practices that are more expensive and take 
agricultural land out of production, we are going to need to be 
more targeted about that, so we will not have the same amount 
of acreage increases for those practices. Some of those 
practices are the most effective at improving water quality, in 
particular, edge-of-field practices like nutrient treatment 
wetlands, bioreactors, saturated buffers, and stabilizing 
stream banks. For those practices, it will take additional 
incentives for farmers to want to adopt those, but those are 
some of the best practices for removing nitrogen and 
phosphorous.
    Another measure is going to be the investment for the Iowa 
Nutrient Reduction Strategy. We can already measure what is 
going on through the NRCS and the Iowa Department of 
Agriculture and Land Stewardship cost-share programs. We don't 
have a good handle on the private sector investment--how many 
acres are producers putting practices in place with no cost 
share whatsoever. We are seeing increasing amounts of that in 
terms of cover crops and nutrient management and conservation 
tillage, for instance.
    Then ultimately the biggest and most important indicator is 
going to be water quality. We want to see more than just the 
modeled load reductions. We want to actually see the needle 
move in terms of improved water quality and not just at the 
edge of field scale, but at the watershed scale.
    Now, it is going to take years to do that, so we have to be 
patient, but ultimately, improving water quality is what this 
strategy and the Iowa Agriculture Water Alliance are all about.
    Chairwoman Stabenow. Thank you very much, and thanks to all 
of you very much for the work that you are doing. Again, we see 
strategies happening. We have increased those tools and 
strategies in the farm bill. We know that there is a sense of 
urgency, as the mayor can say, as we look at what needs to be 
done in a number of ways to address this. But we do know that 
long term, as well as short term, that our farmers and ranchers 
have a very important role to play in this and that each of you 
are involved in helping to make that happen.
    So thank you very much, and thank you for your patience 
today, and we look forward to working more with you.
    We will ask Mr. Jason Weller to come forward. Good morning. 
Well, it is actually not morning anymore. Good afternoon.
    Mr. Weller. Good afternoon.
    [Pause.]
    Chairwoman Stabenow. Well, good afternoon. We appreciate 
your patience as well today, and we want very much to hear from 
you, in your position as Chief of the Natural Resources 
Conservation Service. You have been there since July 2013. We 
very much appreciate the work that you are doing.
    Chief Weller oversees a staff of more than 10,000 employees 
across the country who work to protect the environment, 
preserve our natural resources, and improve agricultural 
sustainability through voluntary private lands conservation. 
Chief Weller has also done an outstanding job over the last 
several months implementing the Conservation Title of the farm 
bill, and we appreciate our great working relationship.
    He is a native Californian who worked for the California 
Legislature prior to moving to Washington, DC, where he worked 
on conservation policy in a number of roles at the White House 
Office of Management and Budget, the House Budget Committee, 
the House Appropriations Subcommittee on Agriculture. Prior to 
being appointed Chief of NRCS, he served as chief of staff to 
the former Chief, Dave White.
    So thank you very much for being here, and we would like 
very much to hear from you and have a couple questions.

      STATEMENT OF JASON WELLER, CHIEF, NATURAL RESOURCES 
     CONSERVATION SERVICE, U.S. DEPARTMENT OF AGRICULTURE, 
                        WASHINGTON, D.C.

    Mr. Weller. Well, good afternoon, Chairwoman Stabenow and 
members of the Committee. Thank you very much for the 
invitation to be here today.
    If I may--and hopefully you have a little presentation 
packet in front of you--instead of just talking to you, I would 
rather actually talk with you and talk a little bit about who 
we are, the type of practices, and use some visuals to actually 
hopefully articulate what it is that we do with farmers and 
ranchers. But first let me just say how proud I am to serve 
NRCS and represent the 10,500 men and women who work across the 
landscape to work collaboratively with farmers and ranchers. 
Let me also say how appreciative we are at NRCS for the 
authorities, the tools, and the resources, Chairwoman Stabenow, 
you and the Committee have provided us. We are doing a lot of 
great work, and we are very excited about what we are also 
going to be able to deliver for farmers and ranchers with the 
additional resources you have given us through this new farm 
bill.
    Also, let me just state right up front, kind of a 
definition of what is sustainable agriculture. The bottom-line 
definition for me is NRCS is only successful if the farmer is 
successful. That means we are helping them be economically 
successful. That for me is the ultimate litmus test. We want 
these family operations, these family businesses, to be in 
business not just this year or next year. We want them to be in 
business generations from now.
    So the conservation practices we offer to them have to work 
economically, have to help their bottom line, and, of course, 
also address the sustainable use of their resources, their soil 
and their water resources, so they can grow the feed and fiber 
that is part of their business, that we as society rely upon.
    So we are very focused on sustainable agriculture, 
sustaining those families, sustaining those businesses, because 
the best use of those lands are actually working lands. You 
talk to our colleagues in the Environmental Protection Agency, 
and they will say for the Chesapeake Bay the best land use for 
the bay, if you care about the bay health, is actually 
agriculture. They want those lands in working agriculture, 
because when those lands are lost, converted to other uses, per 
acre the urban use of those lands is way more polluting per 
acre than a pasture or crop field or a forest ever will be.
    So with that, let me just kind of quickly go through, and I 
will try and keep it under 38 minutes or so. I will be really 
quick here.
    First, the second slide here is really an overview. EPA 
produced a report last year that talked about the economic--
actually the biologic condition of the rivers and streams in 
the United States. It turns out, according to EPA, 55 percent 
of rivers and streams in the U.S. are actually in poor 
condition, really highlighting the real challenge we face 
addressing not just the quality but also the quantity of the 
waters upon which we all rely, whether for recreation, for 
municipal water supply, for ag production, for industrial use.
    Turning the page, the central focus, though, for us at NRCS 
is, across the Lower 48, 70 percent of the land is privately 
owned; 88 percent of the waters of the U.S. come off of private 
lands. So if you care about the condition of the environment, 
the availability of water, for whatever purpose, you really 
have to then think about working with those millions of 
landowners and the decisions they make on a daily basis which 
will affect the ultimate quality of our waters and the 
availability of our waters. We at NRCS believe that ultimately 
a collaborative, voluntary, incentive-based approach is the 
most effective.
    So turning the slide, in terms of planning, if we rewind 
the tape a little bit about 80 years, when our agency was 
created by President Roosevelt in 1935, at the height of the 
Dust Bowl, one of the worst ecological disasters in the Nation 
we ever faced, what we were created to do was to provide 
technical assistance, to provide planning advice to a farmer or 
rancher.
    So we worked through a nine-step planning process where we 
helped convey our expertise in agronomy, in nutrient 
management, in engineering expertise, and provided options to a 
landowner to then make changes in the management of their land 
to ultimately benefit their economic bottom line, but also to 
protect their soil and water resources. So it is a three-phase 
approach where we first assess the operation. We work 
collaboratively with that farmer or rancher. What are their 
business objectives? What do they really want to achieve in 
their operation? We create options, and then with the producer 
we arrive at the solution we want to pursue, and then we 
implement and evaluate.
    Turning the page, Slide 5, in terms of conservation 
practices, we have over 160 practice standards at NRCS. We 
believe they are some of the best standards for conservation 
anywhere in the world. They are peer reviewed. They are 
constantly updated. These are examples--you see some visuals 
from the top left there of no-till operations, to grassed 
waterways, to prescribed grazing practices, to the injection of 
manure, to strip-cropping, to even helping producers manage 
their manure for economic benefit, in this case putting roofing 
structures and the heavy use pads for manure management 
purposes.
    Slide 6, what we have also learned is that there is no one 
silver bullet. There is no one practice that will deliver the 
results for a farmer. It is really a suite of practices, a 
system working together, and that system for water quality 
purposes we called ``ACT,'' A-C-T, avoid, control, trap. So you 
really want to avoid risk, the loss of those valuable nutrients 
and sediments from the farm field. To the extent then where you 
are applying the fertilizers, you are managing your soils, you 
also want to control the movement of water so you are hopefully 
not transporting the sediments and those inputs off the farm. 
Then you also have the last line of defense, you have practices 
that trap the waters, the sediments, and the nutrients before 
they leave the farm field, whether that is surface flow or 
subsurface flow.
    Slide 7 are a couple of shots, examples of these ACT 
practices. For example, it is the precision application of 
fertilizer when the crops need it, so you are optimizing your 
use of fertilizer. It is also then farming on the contour using 
tillage practices, the strip-cropping like you see on the 
bottom left, and ultimately the trapping practices like buffers 
you see there protecting waterways.
    Slide 8, in terms of the overall investment that this 
Committee has provided us from the last farm bill through 2014, 
over 6 years, in just water quality alone we helped put in 
place 727,000 practices across the United States, total 
investment from the Federal side of $3.4 billion that then 
leveraged--because these are cost-share practices, that 
leveraged upwards of an additional $3.4 billion from landowners 
themselves, total investment close to $7 billion in 
conservation action across the United States just in 6 years 
focused on water quality.
    What do those practices look like? Slide 9, these are the 
top practices that we have put in place in terms of acreage, so 
the top practices being, for example, prescribed grazing, 
nutrient management, integrated pest management, and cover 
crops.
    Slide 10, in terms of the overall investment in terms of 
dollar, really focusing very heavily on irrigation water 
management to help producers be hyper-efficient with their use 
of water. That is really good for them optimizing their yield, 
but also reducing the risk of loss of that water off the farm 
field, as well as brush management and cover crops.
    Slide 11, so what do all these practices mean? So we have a 
really sophisticated, among the world's most sophisticated 
model to actually estimate what happens when you put all these 
practices in place. It is great to talk dollars and acres. What 
does that translate into?
    So, for example, in the Chesapeake Bay, what we learned 
over a period of 5 years, through a voluntary, collaborative 
approach, through the investments of NRCS and our partners at 
the State level, through the NGO and philanthropic communities, 
and farmers themselves made, they helped produce tremendous 
reductions in losses of sediment and nutrients off their farm 
fields just in the Chesapeake Bay.
    So, for example, between 2006 and 2011, because of 
conservation systems farmers put in place, they reduced losses 
of sediment by an additional 62 percent. That translates into 
15.1 million metric tons of sediment that are now no longer 
flowing into the Chesapeake Bay. If you were to put that on a 
train, you would fill a train 150,000 rail cars long that would 
stretch from Washington, DC, to Albuquerque, New Mexico, that 
are now no longer flowing into the Chesapeake Bay. That is the 
power of voluntary, collaborative, incentive-based 
conservation.
    Slide 12, we think, what the science is telling us, the 
targeted approach works really well, particularly on a regional 
approach. These are some examples of these landscape 
initiatives we have launched in the last 5 to 6 years. They are 
focusing on large watersheds. We will never have enough money, 
for example, to treat every acre in the Mississippi River 
Basin. But through a collaborative approach, we work with 
farmers, commodity associations, State Departments of 
Environmental Quality, State Departments of Agriculture, Soil 
and Water Conservation Districts. We identify key priority 
areas where we can focus, leverage together resources, and co-
invest together to deliver results for farmers.
    In the Mississippi River Basin, we identified around 50 
high-priority watersheds across the whole basin, and NRCS, we 
invested about $327 million over 5 years. That leveraged an 
additional $20 million from non-Federal sources. It brought in 
600 partners, and they then contributed upwards of 500 
additional staff years to help get voluntary conservation 
implemented and on the ground just in the Mississippi River 
Basin.
    Slide 13, sometimes the best conservation is actually the 
most beautiful conservation, so I want to just show some 
examples of before and after----
    Chairwoman Stabenow. I am going to ask, just in the 
interest of time, so we can get questions in--because these are 
great pictures, but if we could move through the pictures 
quickly, and then I will ask you to wrap up.
    Mr. Weller. Absolutely. So I will let them speak for 
themselves. You see examples from Iowa, from Michigan, from 
Mississippi, and from Vermont as well. We also have success 
stories. Just for the sake of time here, I will end with this 
one success story here from Arkansas. This is the St. Francis 
River, so beyond modeling results, we actually can monitor and 
actually demonstrate actual in-stream results. So a lot of 
States are investing very mightily in the in-stream water 
quality monitoring that the previous panel talked about. In 
this case, streams like the St. Francis River were listed under 
the Clean Water Act as being impaired, so it was a 
collaborative, voluntary approach where producers co-invested 
their resources with our resources and partners, and because of 
the investments we made, we were able to de-list streams like 
the St. Francis River, reaches of this river, in Arkansas. We 
have examples of this across the country, from South Dakota to 
Oklahoma to Washington State and Arkansas itself.
    So, with that, Madam Chair, I will cease and desist, and I 
am happy to answer any questions.
    [The prepared statement of Mr. Weller can be found on page 
106 in the appendix.]
    Chairwoman Stabenow. Thank you very much. That was 
excellent. You covered a lot of ground in a few minutes, and it 
was very, very important. I do think the very last slide, let 
me just underscore that the new Regional Conservation 
Partnership that we have put into place, are very excited 
about, the sign-up resulted in 600 different proposals around 
the country, requests for $2.8 billion in funding, and we have 
about $400 million that will be available. So, clearly, this is 
something people want, local approaches, strategies, and so we 
look forward to working with you.
    I want to ask you something that follows the first panel 
because the mayor of Toledo, who is at the other end of this 
where they actually had to ban the use of the water, and the 
algae blooms, and it was just really a horrendous situation 
that occurred this summer. We know that dissolved phosphorous 
is the primary culprit in creating toxic algae blooms in Lake 
Erie and in water bodies around the Nation. We know that 
conservation practices, some work better than others as it 
relates to this. I wondered if you could talk about the farm 
bill conservation programs, how they could tackle this specific 
issue, and talk about the combination of practices that NRCS 
has to specifically target phosphorous reduction and how it is 
different from nitrogen and other issues. But when we look at 
this particular thing, what do you think are the best available 
tools that we have to help in this situation?
    Mr. Weller. So it starts with sort of where I began a 
little bit and with what the previous panel talked about as 
well. There is no one single silver bullet that will solve 
this. Also you have to take into account there is no one 
approach that works. You really have to start locally. Each 
river basin, each watershed has its own unique 
characteristics--its own climate, its own cropping systems, its 
own soils, its own topography.
    So what we are learning about the Western Lake Erie Basin 
is it is obviously very unique from some other basins in the 
country, the types of soils, the types of practices, the 
topography. Ultimately, yes, phosphorous is one of the main 
contributors to the algal problems in Lake Erie itself.
    So in terms of what are the best practices, it comes back 
to that suite of practices working together. Producers, what we 
have learned from our studies and what other studies have 
shown, they have done a really admirable job of reducing risk 
of loss from surface flows. So they have done a great job. 
There is an expanse of no-till and conservation tilled systems. 
Increasingly we are promoting cover crops and other practices. 
They have done a great job of buffering their fields and 
protecting stream surface flows.
    But what we as an agency--this is not just in Western Lake 
Erie Basin. Nationally, what we have also learned is that as an 
agency we very much have been focused on surface loss. 
Increasingly we realized we really also have to account for 
subsurface loss.
    So what really then is going to be a suite of practices 
working together, starting with nutrient management, and this 
is something the industry is very much focused on and working 
collaboratively with us, with land grant universities, and with 
ag retailers in the basin itself, is really promoting the four 
R's of good nutrient management, helping producers optimize 
their use of fertilizers and applying fertilizers at the right 
rate, the right source, the right time, the right method. That 
is one.
    There is the surface soil loss practices I have talked 
about--cover crops, good tillage practices, good residue 
management practices, buffering practices.
    But also then looking at the subsurface drainage, and so 87 
percent of the cropland acres in Western Lake Erie Basin are 
tile drained. So it is looking at the management and helping 
producers become really effective at managing their surface 
flow, subsurface flows, for example, putting in drainage water 
management practices like control structures, bioreactors, and 
saturated buffers, other different tools that they can then 
utilize, for the subsurface flow, the water they have in their 
tile lines, for hopefully retaining the valuable nutrients that 
are in those waters, holding those waters in place when crops 
need them, getting the water out of the fields when they need 
to get in their fields for planting or for harvest purposes, 
but really trying to ensure that the crops gets access to those 
valuable nutrients when the crops need it to grow grain, 
ultimately then reducing the risk of loss from both surface and 
subsurface flow into surface waters.
    Senator Stabenow. Thank you very much.
    Senator Boozman?
    Senator Boozman. Thank you, Madam Chair.
    Chief Weller, as I said earlier, I am really excited about 
the testimony of the first panel and then your testimony also. 
I was on the Water Resources panel in the House and now Ranking 
on Water here in the Senate on EPW, and it is exciting. You 
know, it seems like all aspects of industry farming, mining, 
the whole bit, really are understanding the impact and 
understanding that they are going to have to get serious, and 
so that is a great thing.
    I guess my concern is, you have all of these positive 
voluntary things. My concern is when you do something like 
Waters of the United States, which is so controversial, and 
there is going to be significant costs involved, what is that 
going to do to the voluntary programs? What is that going to do 
to the progress that we have made so far?
    Mr. Weller. So we have heard at USDA absolutely concerns 
from many stakeholders about the proposed rule.
    Senator Boozman. I guess over a million.
    Mr. Weller. A million comments it is my understanding that 
EPA has received and the Army Corps have received on the 
proposed rule, yes. I know that the comment period may have 
closed----
    Senator Boozman. Most of them negative.
    Mr. Weller. Yes, I will defer to EPA and the Corps to 
characterize----
    Senator Boozman. You have been around for a while.
    Mr. Weller. Yes, I know from farming, particularly also 
they are concerned about the potential impacts of the proposed 
rule, and we are as well concerned about the potential 
disincentives for folks to want to participate in programs. We 
really feel, though, from our agency standpoint that the 
voluntary, collaborative approach is very much effective, and 
our intent is to be there working with producers since actually 
one of the purposes of EQIP itself is to help producers either 
address or obviate the need for regulation, whether that is the 
Endangered Species Act, the Clean Water Act, or the Clean Air 
Act.
    So we really view ourselves as the shield arm if not the 
sword arm in many cases for producers to help them address the 
regulatory pressures they either are experiencing or may 
experience.
    Senator Boozman. No, I would agree, we need to really 
concentrate on the voluntary programs, which, again, it seems 
like from the testimony today and what we are seeing out in the 
field with increased technology that was testified also, that 
we really are making tremendous headway. You mentioned the 
analogy, which I will use, with the boxcars is great. You know, 
we really ought to get some things done.
    Again--and I will my close with this--my concern is--and I 
am very much opposed to the Waters of the U.S. because--for a 
number of different reasons, but also, after hearing today's 
testimony, I think that is something that really would be very 
detrimental to these types of programs also.
    Thank you, Madam Chair.
    Chairwoman Stabenow. Thank you very much.
    Now the Chair of our Conservation Subcommittee, Senator 
Bennet.
    Senator Bennet. Thank you. Thank you very much for holding 
this hearing, Madam Chair, and the opportunity to ask 
questions.
    Chief Weller, thank you for your service and your 
testimony. You talked about voluntary, collaborative incentive-
based conservation in your testimony, and I wholeheartedly 
agree that is where we ought to head. It was the reason I was 
so excited to work with members of this Committee in a 
bipartisan fashion to craft the farm bill's Conservation Title. 
Notwithstanding the spirit in which that piece of legislation 
was drafted, we have heard very severe concerns from Colorado 
about NRCS' implementation of the new Agricultural Land 
Easement Program. Farmers and ranchers in Colorado, rightly 
believe that they had a huge hand in writing these provisions 
to begin with, because they did. They literally helped write 
many of the provisions in the title. Now they have the sense 
that their will and the will of this Committee is being diluted 
by legal interpretations and bureaucracy at USDA.
    One quick example. I visited the Yust Ranch outside 
Kremlin, Colorado, this summer, a beautiful property, the 
confluence of the Blue River and the Colorado River, that the 
Colorado Cattlemen's Agricultural Land Trust worked hard to 
cover with an easement. At the 11th hour, before the deal was 
finalized, NRCS came in and told the Land Trust they needed to 
secure a right-of-way over adjacent BLM land, despite the fact 
that a new right-of-way could not be established because BLM is 
the owner. The ranch felt that this NRCS requirement was a 
solution in search of a problem. I would say that is polite.
    In the end, NRCS did grant a waiver at the very end, which 
I appreciate, the requirement for the Yust deal, but what I 
want to convey to you is that the legal interpretation made no 
sense to anybody that had anything to do with drafting the 
legislation, including the Cattlemen's Land Trust. Beyond these 
right-of-way concerns, we are also concerned about the new 
rules to govern the easement program and the decreases in 
funding that Congress allotted for this program, a concern that 
a lot of that is being spent on overhead and on NRCS' own 
programs and not to help farmers and ranchers, producers, stay 
on their land and put their land into voluntary easements.
    So with all that in mind, could you talk to us a little bit 
about what NRCS is doing to ensure that the Conservation Title 
actually works as intended and efficiently for our farmers and 
ranchers on the ground? Will you please pledge to work with me 
and other members of the Committee to rectify some of the 
deficiencies that we are hearing about? This is happening in 
real time in our States, and I would really appreciate a 
response.
    Mr. Weller. So let me start with the affirmative. 
Absolutely I would be willing to work with you and your staff 
and stakeholders in Colorado, but also in any State that has 
concerns about our delivery of the program. It is very 
concerning to me that there is a perception or a real 
experience about additional bureaucracy. If there is anything, 
we need to reduce that and get out of the way. In the example 
you provided, having a provider secure access over public 
lands, we are taking a hard look at that and trying to apply a 
little bit of country common sense, and so we are going to be 
updating that and fixing that.
    Senator Bennet. I would say just on that point that, at 
least to my mind, the interpretation in that case or the 
requirement--which was not a requirement that any Federal 
agency, any other Federal agency has ever required of any 
landowner that I am aware of in our State, because it would be 
impossible to do it--is exactly a piece with the legal 
interpretation that your general counsel office is promoting 
with respect to these provisions. So I just want to make sure 
you are not left with the impression that this was a one-time 
problem.
    Mr. Weller. Absolutely. I am aware of this not just in this 
one example. Particularly with the checkerboard pattern of 
landownership throughout the West, this is a problem that we 
need to fix, and we are going to fix it.
    Senator Bennet. I would say thank you for appreciating 
that. A lot of what we were trying to do with this legislation, 
at least in my mind, was have a Western perspective actually 
inform the farm bill when it came to conservation. You 
mentioned in your opening testimony the importance not just of 
water quality but of water quantity. That is a huge issue for 
us as well.
    So I just want to volunteer to be at your disposal as you 
look at this to make sure that we are getting to the outcome 
that our farmers and ranchers really expected us to achieve.
    Mr. Weller. So we also have been--we have not been idle 
over the last several months. With the farm bill passing in 
February, we had to get the Agricultural Land Easement Program 
up and running in a matter of months. But in the interim, we 
have been working with land trusts, different conservancy 
groups, State agencies to try and understand--in part what we 
know was a little bit of a shotgun marriage coming out this 
summer, the new Agricultural Land Easement Program. Right now 
we are finalizing our regulations, and I would be happy to 
visit with you or your staff as we are finalizing those 
regulations just to update you as to kind of where we are.
    Senator Bennet. That would be great, and I would also 
volunteer to give you the names of some people in Colorado that 
I think you ought to talk to.
    Mr. Weller. I would welcome that.
    Senator Bennet. Good. Thank you.
    Thank you, Madam Chair.
    Chairwoman Stabenow. Thank you very much.
    Senator Roberts, our soon-to-be Chairman, if I give him the 
gavel. We may wrestle for that.
    [Laughter.]
    Chairwoman Stabenow. Senator Roberts.
    Senator Roberts. Things will not change much.
    Madam Chairwoman, thank you for holding the hearing on this 
important topic, and, Chief Weller, welcome. I have noted with 
interest your background in the House on the Appropriations 
Committee, then the White House on the budget, and that 
obviously gave you a good background for all of this. Some of 
this gets pretty specific, to say the least.
    My statement says voluntary conservation programs are 
talked about in shops all across Kansas not only as a way to 
protect viable land and water resources, but also for the 
ability of farmers and ranchers to continue operating. That is 
why you mentioned that you are the shield to protect producers 
from regulations that exceed the cost-benefit yardstick.
    There is, however, a palpable fear, particularly in the 
western part of my State, that the Federal Government is 
already too close to mandating how cattlemen raise livestock, 
how and where farmers can plant crops, whether or not they will 
be allowed to pass their family businesses to the next 
generation.
    One of the perceived threats is the listing of the lesser 
prairie chicken as a threatened species, which you, I think, 
mentioned. Many Kansans, including myself, believe that the 
listing decision was unwarranted, especially during a tough 
drought, when voluntary conservation efforts were already 
underway to increase population of the species. That drought 
lasted 3 years. We are still short on rain.
    In February, Congress required the Department to conduct a 
90-day review and an analysis on all efforts that pertain to 
the conservation of the bird, including the Lesser Prairie 
Chicken Initiative, CRP, and EQIP. While the U.S. Fish and 
Wildlife Service and the Department of Interior I know oversees 
and enforces the Endangered Species Act, the Department and the 
NRCS have many of the tools and the voluntary programs that 
could and should have prevented a listing.
    Now, earlier this year, the Department publicly stated that 
the report on the effectiveness of the Lesser Prairie Chicken 
Conservation Programs would be submitted to Congress the week 
of May the 5th. I know you are busy down there, but that was 
nearly 7 months ago. The absence of the report has caused 
additional frustration with a lack of transparency between the 
public and the Federal Government.
    So my question is: Why has the report not been submitted to 
the Congress? Who or what is holding it back? When will the 
USDA finally release it?
    Mr. Weller. So the lesser prairie chicken has been a focus 
of our agency now for many years. We have created a landscape 
initiative just very much focused on the lesser prairie 
chicken, and we have tried to target our resources to help----
    Senator Roberts. Well, where is the report?
    Mr. Weller. The report is still in departmental clearance, 
I am afraid to say, and it should be released imminently. It 
has been finalized by our agency, and it----
    Senator Roberts. What is ``imminently''? A couple of weeks?
    Mr. Weller. Hopefully within the next week to 2 weeks.
    Senator Roberts. Within the next week, good. Well, that is 
good news.
    In a similar vein, do you have any update on the 
effectiveness of the NRCS-run Lesser Prairie Chicken 
Initiative, i.e., are populations of the bird increasing? We 
hear they are.
    Mr. Weller. We hear anecdotally that, yes, they are, so we 
have, as I said, this initiative where we focused close to $30 
million to work with ranchers and farmers to put in place 
practices. Those practices have treated over a million acres in 
the core area for the lesser prairie chicken, and we think it 
is having a very beneficial impact on the populations in these 
core areas where we have targeted the resources. So we think it 
is working.
    Senator Roberts. Let me move to the waters of the United 
States that Senator Boozman mentioned. Nine Senators met with 
the Administrator of the EPA, Gina McCarthy, on the final day 
of the Congress before we adjourned--well, we did not adjourn, 
we are back. But at any rate, we really basically just asked 
her why we cannot roll back these regulations. While voluntary 
conservation measures are popular in Kansas to preserve and 
improve our water quality and availability, the EPA's proposed 
Waters of the United States is a major concern. I just attended 
the annual Farm Bureau dinner, about 1,000 farmers out in 
Kansas. That was the number one issue, lesser prairie chicken 
number two. You would think it would be a lot of other things, 
but that is just the way it was. I was disappointed that the 
Department and the NRCS were involved with the EPA's efforts 
through this additional interpretive rule. I want you to 
cooperate, and I want you to communicate, more especially with 
lesser prairie chicken, and that is good. But the interpretive 
rule has created confusion among the countryside, singling out 
56 NRCS technical standards as qualifying for exemptions. Now, 
I would defy any farmer, their CPA, or any farm organization to 
try to wade through those 56 and make sense out of it to the 
degree that they feel that they are doing things the right way 
according to the NRCS.
    The Clean Water Act already exempts normal farming and 
ranching activities from many of the permitting requirements, 
so basically why did the NRCS spell out 56 exemptions when the 
law already has one?
    Mr. Weller. So the intent was, I think, a good one. 
Unfortunately, I know there have been a lot of concerns raised 
by stakeholders here in Congress as well as among our farming 
and ranching stakeholders. It was a process that NRCS, sitting 
down with the Army Corps and EPA, identified practices, 
activities that occur, may occur in the Waters of the U.S. 
These are not upland practices. In these cases, they could be 
like stream crossings, actual wetland restorations themselves, 
where, when producers have had to get permits, in some cases it 
has taken months or years to get a permit; or as an agency, we 
have had to invest hundreds of hours of staff time trying to 
get a permit to do a 0.8 acre wetland restoration.
    So the intent was to streamline those activities that 
actually occur in the Waters of the U.S., to not have to go 
through a permitting process. But that said, as has been 
pointed out previously, a lot of stakeholders were very much 
concerned about both the proposed rule as well as the 
interpretive rule that EPA and the Army Corps promulgated and 
produced. I understand that EPA and the Army Corps are very 
carefully considering options on how to address concerns on the 
interpretive rule.
    Senator Roberts. So that has still not been finalized with 
regards to the 56 as opposed to one. My question I think has 
already been answered, and I am over time, and I apologize to 
my colleagues. Who wanted the clarification of the exemptions? 
Before this rule, the farmers in my State certainly were not 
asking for it.
    Mr. Weller. I think we have heard from our customers 
themselves, and a lot of this then is, I think, variability 
between Corps districts. There are some Corps districts that 
have a very strict interpretation, and there are other Corps 
districts that do not.
    Senator Roberts. Will you consider withdrawing the 
interpretive rule and any guidance already issued until the 
full Waters of the United States rule is finalized?
    Mr. Weller. I defer to EPA and Army Corps on what they 
ultimately want to do, but, yes, that is one of the options 
that are being considered.
    Senator Roberts. What do you think about that?
    Mr. Weller. I think we need to take very close heed and pay 
attention to the concerns from farmers in this confusion that 
the interpretive rule unfortunately has created, and if 
anything, it needs to be simplified so that it's a little more 
clear as to what the intent was and what the benefits are.
    Senator Roberts. Are changes to the interpretive rule or 
guidance, are you considering all the comments you have 
received? Because you have received a bunch, I know.
    Mr. Weller. Yes. I know, absolutely, EPA and the Army Corps 
are considering the comments they have received, over a million 
comments on the proposal.
    Senator Roberts. All right. Thank you, sir.
    Chairwoman Stabenow. Thank you very much.
    Senator Donnelly?
    Senator Donnelly. Thank you, Madam Chair.
    Chief Weller, thank you for being here. I am from Indiana. 
I am a huge supporter of cover crops, our State is, a huge 
supporter of clean waterways, good agricultural management by 
our farm and agriculture community. In my time, I have never 
seen our waters cleaner in our State. Yet, no one wants cleaner 
waters than the farmers who live right there on the farm with 
their own children, their own family there. There is a real 
feeling, I think, in our ag community of what has become an us-
against-them situation in regards to the Waters of the United 
States, that our farmers feel we work nonstop every single day 
to voluntarily comply to make our waters cleaner, to make 
things better. All we hear is more Government regulation.
    I think what has happened is those actions have lost the 
confidence of our ag community, that they sit and work every 
single day to make our waters cleaner and say all we do is get 
more hassles every day. So where is the connection between the 
voluntary actions we are taking, the reality of what is going 
on in our State and I am sure other States, and where 
Government regulations have gone?
    Specifically, I also want to ask you about one of the 
things that has struck me the most were concerns from 
conservation supporters that the interpretive rule may actually 
have a negative impact on producers' implementing conservation 
practices. Many Hoosier farmers have said they were unaware 
conservation practices trigger Clean Water Act permitting 
requirements, and by creating specific exemptions, an 
assumption has been created without a State exemption other 
practices requiring a CWA permit before being implemented. Did 
you think about this consequence and about what would happen?
    Mr. Weller. I know there was a lot of careful consideration 
put into the interpretive rule, and there are experiences in 
other States where producers want to put in place practices, 
and they have had to go through a permitting process that has 
been in some cases pretty difficult. So I think the intent was, 
again, to help streamline, but we are also aware of the 
unintended consequences of, if nothing else, confusion but also 
perceptions about the need for permitting or disincentivizing 
actions. It was something that--I will just say it was at least 
personally to me a surprise.
    Senator Donnelly. You know, as was said, there are over a 
million comments, and they are from folks who love the land, 
who love what they are doing, who have no desire to see our 
waters become in lesser condition at any point. Do you 
understand the frustration and the feeling that our farmers 
have when they look up and they go, ``Our Government is 
supposed to be my partner and instead they seem like my 
adversary''?
    Mr. Weller. I definitely appreciate the frustration. In my 
home State of California, farmers there, I think more than 
anywhere, are actually very heavily regulated, whether it is 
for air, for wildlife, and for water. When I visit producers in 
the Central Valley or along the coast, I understand both the 
palpable frustration but also the bottom-line business costs 
that regulation creates. So it is a perception elsewhere in the 
country.
    Senator Donnelly. These are smart business people who 
understand that dirty water does not increase their bottom 
line; it makes it more difficult; that the ability to run their 
operations with effective clean water and good situations makes 
them more profitable, but not only makes them more profitable, 
but at the end of the day they are--they are the 
conservationists and the environmentalists who are on the front 
line, who are there dealing with it every single day. I guess I 
would just urge you and the EPA as we look at this to have more 
confidence and more faith in our farmers, our ag community, and 
others that they want to solve the problem without having to 
get another layer of regulation put on top of them.
    Additionally, I also wanted to ask you about when we are 
incentivizing a large group of farmers to implement voluntary 
conservation practices, we have limited financial resources. 
One of the things we are looking at is whether we can 
demonstrate that a number of these practices make direct 
financial sense for farmers through increased yields, reduced 
input costs. We might see these practices take off. What are 
your keys for us to continue to increase the number of folks 
planting cover crops and implementing other voluntary 
conservation practices? Because as I said, I am a huge believer 
in cover crops, of what it has done to hold the nutrients in 
the ground, to help reduce runoff, to help keep our rivers and 
streams cleaner. What are the things you think of that we can 
do to help increase voluntary conservation practices?
    Mr. Weller. So I think there are two things that are 
critical. Number one is to find more farm advocates, and this 
is increasingly--it is less a problem in Indiana. Indiana in 
many cases is the hotbed of the soil health movement. But to 
have actual--and the former panel talked about this, to have 
farmers--the best form of, I guess, salesmanship is a farmer-
to-farmer conversation, peer pressure. So where farmers see how 
cover crops can be incorporated, how they work, can actually 
help their bottom line, that is the best kind of, I think, 
pioneer or piloting approach to demonstrate the power and 
effectiveness of cover crops. So we are working with partners 
to help identify those pioneers, those leading-edge 
conservationists to show the power of cover crops.
    The second thing is then to just get the economics down, to 
really show the bottom line is saving money. It is saving money 
through optimizing inputs, but also by helping them improve the 
overall resiliency of their soils. It is helping them be 
productive whether it is through wet or through dry periods as 
well.
    Senator Donnelly. I know how busy you are. I would ask you, 
though, to stay in close touch not only with everybody else's 
ag communities, but especially, as you said, in Indiana. We are 
strong believers in cover crops, of what it can do on a 
voluntary basis for our water condition, for our water 
cleanliness, for nutrient maintenance. I think the closer you 
stay towards being in contact on a constant basis not only with 
my ag community but everybody else's, I think you will find 
there are a lot more solutions there than you could ever 
imagine.
    Thank you, Madam Chair.
    Chairwoman Stabenow. Thank you very much.
    Senator Hoeven?
    Senator Hoeven. Thank you, Madam Chairman. I appreciate it.
    Chief Weller, good to have you here. The first thing, I 
would like you to come out to my State and meet with my 
farmers. Would you be willing to do that?
    Mr. Weller. Yes, sir.
    Senator Hoeven. Thank you. I would appreciate it, and I 
think it is obviously very good for them to have you out there, 
but I think it is beneficial to have you out there as well in 
terms of your job and what you do.
    Waters of the U.S. is a big problem for our farmers and 
ranchers. What are you doing to solve the problem? What do you 
feel can be done to solve the problem of Waters of the U.S.?
    Mr. Weller. So as USDA generally, NRCS specifically, we are 
not regulatory, and the Waters of the U.S. rule is an EPA and 
Army Corps regulation. While we did provide technical advice on 
the interpretive rule, which is a tangential effort, the 
overall proposed rule on the Waters of the U.S., I would defer 
to EPA and Army Corps on taking into account the million-plus 
comments they have received from the public and from 
stakeholders.
    Senator Hoeven. But you are hearing from farmers on what a 
big problem it is?
    Mr. Weller. Yes, absolutely.
    Senator Hoeven. It is my strong belief it needs to be 
rescinded. Our farmers and ranchers are looking at 56 different 
practices they are supposed to try to understand, track, and 
follow. I mean, this thing is just absolutely unworkable.
    Senator Roberts asked you what you can do to help. I guess 
I would just ask for your assistance. This is a big problem, 
and I think you are hearing that very directly from farmers and 
ranchers.
    Mr. Weller. Yes, we are, sir.
    Senator Hoeven. On the conservation compliance issue, I 
want to ask you about what you are calling an ``obvious 
wetland.'' So in terms of conservation compliance, one of the 
things that NRCS is using is they are talking--they are using a 
criteria in approaching or managing wetlands, calling certain 
areas ``obvious wetlands'' as a part of their conservation 
compliance measurement. Can you define what an ``obvious 
wetland'' is?
    Mr. Weller. So under the 1985 Food Security Act, we have 
sort of a three-step approach to identifying what a wetland is: 
Number one, does it have hydric soils? Number two, is it 
inundated with water sufficient so that site would support 
hydrophytic vegetation? Three, under normal conditions, would 
it actually grow hydrophytic vegetation?
    So those three characteristics, those are the three tests 
we use for identifying a wetland, and that is what we would use 
to identify an obvious wetland.
    Senator Hoeven. What response have you had from the farmers 
using that approach? What is their reaction? Is this something 
that--look, the problem they have is the uncertainty. When they 
are out on their farm, those wetlands change all the time, as 
based on conditions. They need to have some kind of certainty 
in terms of understanding what they are allowed to do and how 
you are going to approach it. How do you give them more 
certainty in that process?
    Mr. Weller. So what the farm bill, the Farm Security Act, 
provides then is that certainty where you get a certified 
wetland determination from NRCS. We then stand behind that 
certification. We will then identify for a producer whether 
there are or are not these wetland conditions on the farm and 
whether or not they were prior converted or not prior to the 
1985 act itself. So it is that certification that is what 
provides that certainty to a producer.
    Senator Hoeven. Well, I think that is part of the problem 
is when they go through that certification process, they always 
feel like they are kind of guessing as to where you are going 
to come down on it. How do you make that a more certain 
process?
    Mr. Weller. So we are trying to do a lot of different 
things, both within North Dakota but I think across the Nation, 
is bring more of that certainty. So one of the things we are 
going through right now is the methods we use for--first, 
starting with the off-site method for determining wetlands. We 
are trying to bring state-of-the-art science using LiDAR 
technology, aerial photography, remote sensing technology so 
that we can efficiently and quickly provide those 
determinations, those preliminary determinations to a producer. 
They can always request an on-site determination, though. If 
they want to have a field service person come out and actually 
walk the field with them and do the soil tests and the site 
determinations, that is always available. They have an appeals 
process to go through. There are a lot of protections in there 
to assure that a good, credible, transparent, science-based 
process has been used to really--because we take it very 
seriously.
    Senator Hoeven. Well, and that is where interaction with 
the farmers, by you as well as your people, I think is helpful 
so that there is some understanding in terms of what your 
approach is going to be, so that, they can--they know what they 
can and cannot do.
    What about use of conservation groups, NRCS' use of 
conservation groups? That obviously creates some concerns with 
the farm groups. Have you talked to the farm groups and met 
with them on that? Give me your thinking on that and what your 
approach is going to be in terms of--I think with any of these 
practices, you need to be communicating with the farm groups so 
they know what you are doing, why you are doing it, it is 
transparent, and they are comfortable with it.
    Mr. Weller. Absolutely. We are not going to partner with an 
organization that does not have a good relationship with 
farming. We often partner with organizations across the country 
to help amplify our field workforce, and we are really trying 
to stretch the public tax dollar as far as possible. But to be 
clear, we do not hire conservation organizations to do wetland 
determinations. That is a Federal role. That is the 
determinations we do. We may hire consultants, engineering 
operations, folks who have agronomy degrees, that they provide 
us determinations, and at the end of the day it is NRCS that is 
still making that determination itself. But we do not hire 
conservation organizations or advocacy organizations to do 
wetland determinations.
    Senator Hoeven. Have you communicated that to the farm 
groups? Do they understand that?
    Mr. Weller. I have communicated that, yes, but I know there 
is still a concern about the relationship the NRCS has with 
conservation organizations in North Dakota. To be clear, those 
contractual arrangements are really about providing the 
technical assistance, planning, and farm bill program delivery. 
It is not wetland determinations that we are doing with those 
groups.
    Senator Hoeven. One final piece that I want to ask is in 
the farm bill, we included the Regional Conservation 
Partnership Program, and you are obviously well familiar with 
it. In North Dakota, in the Red River Valley, which affects 
North Dakota and Minnesota--to a lesser degree our good friends 
in South Dakota--but primarily North Dakota and Minnesota, we 
have tremendous flooding. We have it every year almost. We need 
a holistic solution that addresses it not only for the urban 
areas--Fargo and Moorhead--but also for the rural areas and 
addresses it for the small towns and for our farmers as well.
    That Regional Conservation Partnership Program is very, 
very important to us. It is a big area of focus. We need it in 
that area as part of a total flood protection plan that 
protects the rural areas as well as the communities. I ask for 
your strong participation and help in that multi-State effort. 
You are an important part of the solution.
    Mr. Weller. Well, thank you, sir. We really appreciate the 
tools that this Committee and you have provided us through the 
new program to help provide those locally driven solutions, so 
thank you.
    Senator Hoeven. Thanks, Chief.
    Senator Donnelly. [Presiding.] Senator Thune.
    Senator Thune. Thank you, Mr. Chairman. I want to, first of 
all, I know it has been talked about already, but just make 
clear, from my State and the people I represent, that one of 
the biggest issues and concerns in the State of South Dakota 
and its number one industry, agriculture, is this proposed rule 
concerning Waters of the United States, which was published 
earlier this year by EPA.
    There is not anything that I have been familiar with 
initiated by EPA, or any other Federal department, for that 
matter, that has resulted in so much concern and fear in my 
home State.
    Since you are here today, Chief Weller, I wanted to 
reiterate to you and remind you of your obligation and 
responsibility as well as that of Secretary Vilsack and others 
at USDA to make absolutely certain that you guard the welfare 
and well-being of production agriculture and our farmers and 
ranchers as EPA appears to be moving forward with this rule in 
spite of broad bipartisan opposition from across the country. I 
just wanted to put that on the record.
    I do want to ask a question with regard to an issue that we 
have had in eastern South Dakota. As eastern South Dakota is 
ground zero when it comes to the prairie pothole region, and 
farmers particularly in northeastern South Dakota have been 
challenged by flooding on and off now for the past several 
years. Many of these farmers, in order to comply with the 
conservation compliance provisions in the 2014 farm bill have 
requested wetland determinations from the NRCS. It is an issue 
I have been deeply involved with and appreciate your agency 
sending personnel from Washington, DC, at my request, this past 
summer to a wetlands meeting that we had in Aberdeen, South 
Dakota, where we had more than 300 farmers and ranchers attend. 
As a follow-up to that meeting, I am wondering perhaps if you 
can provide me with an update on the wetlands determinations 
backlog in South Dakota and what progress has been made since 
that meeting that we had last July.
    Mr. Weller. Absolutely. So since that meeting in July, we 
have reduced the backlog in South Dakota by an additional 10 
percent, so now it is down to less than 2,600 requests for 
determinations to be made. We are making good progress. I am 
optimistic. Our State conservationist there, Jeff Zimprich, is 
absolutely totally focused on this, and he has a lot of 
responsibilities, but he gets the importance of this. While we 
have made progress, that is not sufficient. He has 18 staff 
dedicated full-time just doing wetland determinations. He is 
going to bring an additional four people on full-time, so over 
20 people dedicated full-time doing nothing but wetland 
determinations. He has another eight people working half-time 
on this.
    I recently just sent an additional million and a half 
dollars, the majority of which is going to South Dakota, to 
hire additional staff, additional resources to get more 
determinations done quickly. We have a 3-year plan to get all 
the backlog completely wiped out across all four prairie 
pothole States, and I am holding the State conservationists 
accountable for getting that backlog cleared out. So while we 
have made progress, it is not sufficient, it is not acceptable, 
and so we are going to get those determinations made as quickly 
as possible.
    In terms of that Aberdeen meeting, I understand that Jeff 
left that with a 45-step action plan. He has already started 
implementing it. He is well on his way to getting that rolled 
out. In January, he is going to be sending out letters to 
customers, updating them where they are at, basically 
acknowledging that we have received your request, we are on top 
of it, here is our estimated timeline to get to you. So we 
really are going to do a much better job with the customer 
service that I think you expect of us.
    Senator Thune. Thank you. I appreciate that, and like I 
said, I appreciate your folks coming out for the meeting in 
July, and I know it was a very spirited meeting, because it is 
something that we hear a lot from our farmers and ranchers up 
in that area of South Dakota. I appreciate the sort of singular 
focus you have put on that, and I look forward to your 
continued responsiveness. It sounds like you have got a plan in 
place. We are delighted to hear that. We hope that it will work 
that backlog down because it is something that has been a 
lingering problem that has created great consternation for a 
lot of our producers in that region of South Dakota. So I 
appreciate that. Thank you.
    Mr. Chairman, thank you.
    Senator Donnelly. Thank you, Senator.
    Chief, thank you very much. I want to thank all the 
witnesses for being here today. Any additional questions for 
the record should be submitted to the Committee clerk 5 
business days from today, so that is by 5:00 p.m. on Wednesday, 
December 10th.
    This hearing is adjourned.
    [Whereupon, at 1:16 p.m., the Committee was adjourned.]
      
=======================================================================


                            A P P E N D I X

                            DECEMBER 3, 2014



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] 
      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                            DECEMBER 3, 2014



      
=======================================================================

[GRAPHIC] [TIFF OMITTED]

      
=======================================================================


                         QUESTIONS AND ANSWERS

                            DECEMBER 3, 2014



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] 

                                [all]
                                
</pre></body></html>
